“Final Memorandum on Audit of Network Perimeter Security at [a NASA Center]”
(IG-05-009, February 23, 2005)

The NASA Office of Inspector General (OIG) conducted an audit to determine whether
the process of granting external access to the network perimeter at a NASA Center was
adequate to reduce the risk of unauthorized access and compromise to the Center’s
computer systems. In 2003, the Center implemented a process for approving and
tracking computer systems that have access outside the Center’s network. We identified
three opportunities that should strengthen the process and reduce the risks inherent in
allowing external access. The Center concurred with all three recommendations and took
actions to implement them.

The memorandum contains NASA Information Technology/Internal Systems Data that is
not routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
